                                                      IG-00-030




AUDIT
                            COMPLIANCE WITH THE NATIONAL
REPORT                        ENVIRONMENTAL POLICY ACT

                                     March 31, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The
identity of each writer and caller can be kept confidential, upon request, to the extent permitted by
law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html



Acronyms
CFR         Code of Federal Regulations
FAR         Federal Acquisition Regulation
NEPA        National Environmental Policy Act
NPG         NASA Procedures and Guidelines
OIG         Office of Inspector General
R&D         Research and Development
W                                                                                    March 31, 2000


TO:          A/Administrator

FROM:        W/Inspector General

SUBJECT: INFORMATION: Compliance With the National Environmental Policy Act
         Report Number IG-00-030


The NASA Office of Inspector General (OIG) has completed an audit of Compliance with the National
Environmental Policy Act of 1969 (NEPA).1 We found that 11 (85 percent) of 13 mission-related
programs and projects2 (programs/projects) reviewed did not consider environmental impacts as
required by NEPA and NASA guidance. All nine of the reviewed construction of facilities projects3
considered environmental impacts as required by NEPA. We also found that NASA’s environmental
planning, oversight, guidance, and training related to NEPA compliance were inadequate.
Consequently, mission-related programs/projects totaling about $3 billion were potentially exposed to
increased costs, project delays, missed opportunities for preferable alternatives and/or public
involvement, and adverse public perception and reaction. Also, because of the potential impact of
NEPA noncompliance, we believe that NASA should report NEPA noncompliance for mission-related
programs/projects to the Internal Control Council as a potential material management control weakness4
to be included in NASA's



1
 The intent of NEPA is to protect the environment by requiring Federal agencies to gather information about the
environmental consequences of proposed actions (see the Note), assess the environmental impacts of those actions,
and consider alternatives that avoid or reduce adverse environmental impact. A key part of NEPA is keeping the
public informed. (Note: Actions are new and continuing activities, including programs and projects; new or revised
agency rules, regulations, plans, policies, or procedures; and legislative proposals. Major Federal actions are
potentially subject to Federal control and responsibility.)




**Deliberative process information omitted.**
                                                                                                                 2


annual Federal Manager’s Financial Integrity Act statement of assurance. We plan to perform a follow-
up audit to ensure action is sufficient to provide reasonable assurance of NEPA compliance

Background

NASA is responsible for evaluating in the early planning stages the environmental impacts of proposed
programs/projects. Sound management controls over program/project formulation and implementation
processes are needed to ensure that environmental impacts are appropriately considered and NEPA
requirements are met. To ensure compliance with the NEPA, NASA established a multiple-step NEPA
process. The process starts with an environmental evaluation of each program/project proposal to
assess potential environmental impacts. If NASA determines that the proposed program/project falls
into a category that does not have a significant environmental impact, then NASA must prepare a
record of environmental consideration to document the determination. However, if the environmental
evaluation determines that significant environmental impacts may exist, then NASA must prepare an
environmental assessment5 and/or an environmental impact statement.

Recommendations

NASA management should report NEPA noncompliance for mission-related programs/projects as a
potential material control weakness and improve controls over environmental management for NASA’s
mission-related activities. Specifically, NASA should revise internal guidance, ensure environmental
management planning is performed, improve oversight of NEPA compliance during program/project
formulation, and educate employees in the specific NEPA requirements.

Management Response and OIG Evaluation

Overall, management stated that the audit report exaggerates the nature and scope of NEPA violations
for the 13 programs/projects reviewed, although management agreed that a number of deficiencies
existed. Management agreed, that training, guidance, and managerial controls related to NEPA are
inadequate to ensure NEPA compliance for existing and future programs/projects.

Management’s planned corrective actions for greater Program Management Council oversight,
increased environmental coverage in program/project management guidance, revisions to NASA's
NEPA and facilities guidance, and increased NEPA training are responsive to our recommendations.
However, management’s responses to recommendations for reporting NEPA noncompliance as a
potential material management control weakness, requiring environmental management planning, and
bringing existing programs/projects into NEPA compliance are nonresponsive. We maintain that
because Agency managers were not aware of and, therefore, had not considered NEPA requirements
at a program/project’s earliest planning phase, our finding accurately portrays the extent of
noncompliance . This is the case even if in hindsight, environmental impacts may be of a limited nature.

5
 An environmental assessment is a concise public document that includes a brief discussion of the need for the
proposal, alternatives to the proposal, and the environmental impacts of the proposed action and alternatives.
                                                                                                     3


Although management agrees with our position that environmental considerations need to be factored
into the overall program/project plan, management did not agree to modify governing NASA policy
guidance. We have requested that management reconsider its position on recommendations to (1)
report NEPA noncompliance as a potential material management control weakness until training,
guidance, and management controls are in place; (2) require environmental management planning; and
(3) bring existing programs/projects into NEPA compliance.

Details on the status of the recommendations are in the finding section of the report.

[Original signed by]
Roberta L. Gross

Enclosure
 Final Report on Audit of Compliance with the National Environmental Policy Act
             FINAL REPORT
       AUDIT OF COMPLIANCE WITH
THE NATIONAL ENVIRONMENTAL POLICY ACT
W                                                                        March 31, 2000




TO:            J/Associate Administrator for Management Systems

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Audit of Compliance with the National
               Environmental Policy Act Redacted Report*
               Assignment Number A9902100
               Report Number IG-00-030


The subject final report is provided for your use and comments. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. We consider management’s proposed, corrective actions responsive for
recommendations 3 through 7 and 9. We request that management reconsider its position on
recommendations 1, 2, and 8 and provide additional comments by May 1, 2000 Management's
actions are sufficient to close recommendation 6 for reporting purposes. All other recommendations
will remain open for reporting purposes until agreed-to corrective actions are completed. Please
notify us when action has been completed on the recommendations, including the extent of testing
performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Chester Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Mr. James
Richards, Auditor-in-Charge, at (321) 867-4841. We appreciate the courtesies extended to the
audit staff. The final report distribution is in Appendix H.

[Original signed by]
Russell A. Rau

Enclosure
                                                                  2

cc:
B/Chief Financial Officer
B/Comptroller
G/General Counsel
JE/Director, Environmental Management Division
JM/Director, Management Assessment Division
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
KSC/AA/Director, John F. Kennedy Space Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
                                                          3

bcc:
AIGA, IG, Reading Chrons
GRC/0200/Audit Liaison Representative
GRC/0540/Chief, Environmental Management Office
KSC/HM-E/Audit Liaison Representative
KSC/JJ-D/Chief, Environmental Program Office
MSFC/AD10/Manager, Environmental Engineering Department
MSFC/BJ01/Audit Liaison Representative
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations, 2

  NEPA Compliance for Programs and Projects, 2

Appendix A – Objectives, Scope, and Methodology, 18

Appendix B – NASA’s NEPA Process, 21

Appendix C – Glossary, 22

Appendix D – Laws and Regulations, 25

Appendix E – Programs and Projects Reviewed, 30

Appendix F – Management’s Response, 31

Appendix G – OIG Comments on Management’s Response, 43

Appendix H – Report Distribution, 45
                         NASA Office of Inspector General

IG-00-030                                                                                March 31, 2000
 A9902100

           Compliance with the National Environmental Policy Act

                                       Executive Summary

Background. The National Environmental Policy Act of 1969 (NEPA), one of the first major
Federal environmental laws enacted in the United States, is the national charter that established
environmental goals and policies for the protection, maintenance, and enhancement of the
environment. NEPA mandates that all Federal agencies consider the effects of their actions 6 on
the environment as early as possible and requires Federal agencies (1) to gather information
about the environmental consequences of proposed actions, (2) consider the environmental
impacts of those actions to assist in making environmental decisions, (3) consider alternatives
that avoid or reduce adverse environmental impact, and (4) keep the public informed. In short,
NEPA requires Federal agencies to examine and disclose the potential environmental impact of
proposed actions before commencing those actions.

NASA is responsible for evaluating in the early planning stages the environmental impacts of
proposed programs and projects (programs/projects). The NEPA requirements necessitate
implementation of sound management controls over program/project formulation and
implementation processes to ensure that environmental impacts are appropriately considered
and NEPA requirements are met. To ensure compliance with the NEPA, NASA established
the multiple-step process shown in Appendix B. The process starts with an environmental
evaluation of each program/project proposal to assess potential environmental impacts. If
NASA determines that the proposed program/project falls into a category that does not have a
significant environmental impact, then NASA must prepare a record of environmental
consideration to document the determination. However, if the environmental evaluation
determines that significant environmental impacts may exist, then NASA must prepare an
environmental assessment7 and/or an environmental impact statement.

A glossary defining terms used in this report is in Appendix C.


*We have redacted portions of this report due to references to deliberative process information. The
redacted passages do not affect the validity of this report or management's response.
6
  Actions are new and continuing activities, including programs and projects; new or revised agency rules,
regulations, plans, policies, or procedures; and legislative proposals. Major Federal actions are potentially
subject to Federal control and responsibility.
7
  An environmental assessment is a concise public document that includes a brief discussion of the need for
the proposal, alternatives to the proposal, and the environmental impacts of the proposed action and
alternatives.
Objectives. The overall objective of the audit was to determine whether NASA guidance
ensures compliance with NEPA. The specific objectives were to assess whether NASA
guidance fulfills NEPA requirements and whether managers evaluated programs/projects in
compliance with NEPA and NASA guidance. The objectives, scope, and methodology are
described further in Appendix A.

Results of Audit. Eleven (85 percent) of 13 mission-related programs/projects8 reviewed did
not consider environmental impacts as required by NEPA and NASA guidance. All nine of the
reviewed construction of facilities projects9 considered environmental impacts as required by
NEPA; however, two did not fully comply with NASA draft guidance for implementing NEPA.
We also found NASA’s environmental planning, oversight, guidance, and training to be
inadequate. Consequently, programs/projects valued at about $3 billion were potentially
exposed to increased costs, project delays, missed opportunities for preferable alternatives
and/or public involvement, and adverse public perception and reaction. Due to the extent of
NEPA noncompliance for mission-related programs/projects, we consider this deficiency to be
a potential material control weakness10 reportable in accordance with NASA Procedures and
Guidelines (NPG) 1200.1, “Management Accountability and Control, Audit Liaison, and Audit
Followup,” dated January 23, 1997.

Recommendations. NASA management should report NEPA noncompliance for mission-
related programs/projects as a potential material control weakness11 and improve controls over
environmental management in NASA’s mission-related activities. Specifically, NASA should
revise internal guidance, ensure environmental management planning is performed, improve
oversight of NEPA compliance during program/project formulation, and train employees in the
specific NEPA requirements.

Management’s Response. Management nonconcurred with recommendations to report
NEPA noncompliance as a potential material management control weakness, require
environmental management planning, and bring programs/projects into NEPA compliance.
Management concurred with recommendations for greater Program Management Council
oversight, increased environmental coverage in program/project management guidance,




**Deliberative process information omitted.**
10
   A material weakness is a deficiency that the NASA Administrator determines to be significant enough to
be reported outside the Agency. This designation requires a judgment by Agency managers as to the
relative risk and significance of deficiencies.
11
   Potential material control weaknesses are reported to the Agency’s Internal Control Council and not
directly to Congress.


                                                    ii
revisions to NASA's NEPA and facilities guidance, and increased NEPA training. Management
partially concurred with the recommendation for adding three Council on Environmental Quality
requirements to NASA guidance. Management agreed that NEPA training, guidance, and
managerial controls to ensure NEPA compliance for existing and future programs/projects are
inadequate. However, management took exception to the characterization that
programs/projects totaling about $3 billion are at risk for litigation, stating that the audit report
exaggerated the nature and scope of NEPA violations for the 13 programs/projects reviewed.
Management stated that the programs/projects committed technical, trivial violations of NASA
requirements rather than violations of NEPA and Council on Environmental Quality regulations.
Management also took exception to statements regarding lack of effective NEPA guidance.
The complete text of management’s response is in Appendix F. Details on management’s
general comments and our evaluation are in Appendix G.

Evaluation of Response. Management’s response and planned corrective actions for greater
Program Management Council oversight, increased environmental coverage in program/project
management guidance, revisions to NASA's NEPA and facilities guidance, and increased
NEPA training are responsive. However, management’s responses were not responsive for
recommendations to report NEPA noncompliance as a potential material management control
weakness, require environmental management planning, and bring programs/projects into
NEPA compliance are nonresponsive. We do not agree that program/project managers
violated only NASA requirements. We maintain that because Agency managers were not
aware of NEPA requirements to consider environmental impacts at the earliest planning phase
of a program/project, our finding of noncompliance is not exaggerated, but clearly a violation of
environmental law. We also maintain that environmental considerations must be factored into
the program/project plans at the earliest opportunity, which was not being done.

The report factually stated that 11 programs/projects were not in compliance with NEPA.
Those programs/projects, which had a total value of about $3 billion, could have experienced
increased costs, schedule delays, or missed opportunities. We did not state that the reported
programs/projects were at high risk of litigation, but that failure to perform timely consideration
of environmental impacts could result in litigation. Finally, we recognized the efforts to revise
environmental guidance through issuance of the draft NPG. However, as evidenced by the
number of program/project managers who were unaware of NEPA requirements, NASA must
continue to improve Agency guidance to ensure compliance with NEPA and other
environmental laws.

NEPA noncompliance should be reported as a potential material management control weakness
until guidance, training, and management controls are in place. We maintain that environmental
management planning should be required, and programs/projects should be reviewed and
brought into NEPA compliance. We request that management reconsider its position, and
provide additional comments.




                                                 iii
Introduction

In 1994, the NASA Administrator issued “NASA's Environmental Excellence for the Twenty-
First Century.” This document establishes NASA's overall strategy for environmental issues
and states that environmental excellence is a way of life that must be ingrained as part of the
Agency’s culture. NASA must seek solutions that are environmentally safe in designing and
fabricating spacecraft, launching shuttles, or conducting basic research.

The statutory and regulatory framework for NEPA can be found in: Public Law 91-190, which
contains mandates and policy statements; the Council on Environmental Quality regulations in
Title 40, Code of Federal Regulations (CFR), Parts 1500-1508, which contain definitions of
key terms and directions on NEPA compliance; and the Federal agency-specific regulations and
guidelines. Details on the law and CFR are in Appendix D.

NASA requires that environmental factors shall be a significant consideration at every step in
program/project development and execution and shall include an analysis of environmental
impacts and alternatives. NASA Strategic Enterprises and Program Offices are accountable for
all environmental consideration and are ultimately responsible for full environmental compliance.
The Associate Administrator for the Office of Management Systems is responsible for the
Agency’s environmental management activities, such as developing NASA’s guidance on
complying with NEPA and providing technical advice on NEPA implementation. The Office of
Management Systems’ Environmental Management Division is responsible for implementing the
Associate Administrator’s environmental management activities. Details on the Agency’s
NEPA guidance are in Appendix D.

NASA Centers have responsibility for ensuring that the NEPA process is integrated into their
organizations’ planning processes. Each NASA Center has an environmental office that
evaluates activities for environmental impact, develops and approves required environmental
decision documents, and advises Center personnel on NEPA.

The Program Management Councils12 are responsible for reviewing proposed
programs/projects and overseeing implementation according to NASA policies, including those
related to NEPA.




12
  A complete definition of Program Management Councils is in Appendix C.
Finding and Recommendations

NEPA Compliance for Programs and Projects

Eleven (85 percent) of 13 reviewed mission-related programs/projects13 did not comply with
NEPA requirements or NASA guidance. Of the nine construction of facilities projects14
reviewed, 100 percent complied with NEPA requirements; however, two did not fully comply
with NASA guidance. The noncompliance exists because NASA’s management controls for
environmental compliance are inadequate in the following areas: planning, oversight, guidance,
and training. NEPA noncompliance related to programs/projects totaling about $3 billion could
result in increased costs, schedule delays, missed opportunities for preferable alternatives and/or
public involvement, and adverse public perception. Due to the extent of NEPA noncompliance
for mission-related programs/projects, we consider this deficiency to be a potential material
control weakness reportable to the Agency’s Internal Control Council.

NASA’s Procedures for Implementing NEPA

NASA procedures for implementing NEPA are contained in various regulations, guidelines, and
handbooks. Title 14, CFR, Subpart 1216.3 (CFR 1216.3), “Procedures for Implementing
NEPA,” last amended October 7, 1991, requires managers to consider in the early planning
phase the potential environmental effects of all proposed activities. The CFR 1216.3 addresses
management’s responsibilities and identifies criteria for the three levels of NEPA consideration
(categorical exclusion,15 environmental assessment, and environmental impact statement);
requirements for documentation; and procedures for requesting deviations from the CFR
1216.3. The CFR 1216.3 and draft NPG 8840, “NASA Procedures and Guidelines for
Implementing NEPA and Executive Order 12114,” most recent version dated
October 26, 1999, provide criteria for specific activities normally requiring environmental
assessments or environmental impact statements as well as activities that are excluded from
Agency and CFR requirements.

NASA’s Environmental Management Division directed environmental employees to follow the
draft NPG 8840 in implementing NEPA. NPG 8840 has been under development and in draft
for 4 years. During the course of this audit, the Agency placed a




**Deliberative process information omitted.**
15
   A categorical exclusion is a category of actions that do not have a significant effect on the human
environment. Neither an environmental assessment nor an environmental impact statement is required if a
proposed action is a categorical exclusion.


                                                   2
greater emphasis on issuance of the guidance in final form. The draft NPG 8840 provides
NASA’s overall environmental planning process and standard procedures for implementing
NEPA.

NPG 8820.2B, “Facility Project Implementation Handbook,” dated April 25, 1997, is
NASA's project management guidance for facility planning, budgeting, construction, and
environmental compliance. The handbook's planning chapter describes how to incorporate
NEPA into the facility planning process. The handbook addresses preparing the environmental
evaluation, assessment, and impact statement; identifying categorical exclusions; and issuing a
finding of no significant impact16 and a record of decision. 17 The handbook encourages early
participation by the Centers’ environmental offices in the environmental review process.

NPG 7120.5A, “NASA Program and Project Management Processes and Requirements,”
dated April 3, 1998, provides guidance on implementing NEPA for aerospace program/project
managers. However, the NEPA coverage consists of only three statements referencing the
NEPA law, the environmental office contacts that managers must make, and the NEPA
statement that should be included in project plans (see details in Appendix D).

Status of NEPA Compliance at Three NASA Centers

We reviewed the process for implementing NEPA and tested a total of 13 mission-related and
a total of 9 construction of facilities programs/projects at the John H. Glenn Research Center at
Lewis Field (Glenn), John F. Kennedy Space Center (Kennedy), and George C. Marshall
Space Flight Center (Marshall). A complete list of programs and projects reviewed is in
Appendix E.

Mission-Related Programs and Projects. Of the 13 programs/projects reviewed at Glenn
and Marshall, 11 (85 percent) did not comply with either the NEPA requirements or NASA
guidance because the managers did not consider and document environmental impacts. Seven
of the managers did not consider environmental impacts because they were unaware of the
NEPA requirements. The remaining four managers, although aware of NEPA and NASA
guidance, did not perform environmental evaluations or prepare




16
   A finding of no significant impact is a document a Federal agency prepares if its environmental assessment
determines that the proposed action will have no significant environmental impact.
17
   A record of decision is a document a Federal agency prepares to record the decision it made based on an
environmental impact statement.


                                                     3
records of environmental consideration as required. The four cases of noncompliance were
**Deliberative process information omitted.**

        •    **Deliberative process information omitted.**program manager did not know
             whether an environmental evaluation had been performed during program
             **Deliberative process information omitted.** The program plan included a
             statement that there was no known environmental impact associated with the
             program; however, this statement was obtained from the contractor, and the Center
             has no documentation to support it.

        •    The project **Deliberative process information omitted.** did not perform the
             evaluation because he mistakenly believed that the contractor’s response to a Non-
             Advocate Review18 question satisfied NEPA requirements. The contractor
             responded **Deliberative process information omitted.** would have no additional
             environmental **Deliberative process information omitted.** The project manager
             had no evidence of an evaluation.

        •    **Deliberative process information omitted.** 19 mistakenly determined that
             performing environmental evaluations was inappropriate at the program level. Both
             managers are responsible for overseeing multiple projects that fall under their
             programs. Therefore, the program managers believed it was the project manager’s
             responsibility to perform an environmental evaluation. However, NEPA requires
             that Federal agencies consider environmental impacts on all actions, and NASA
             guidance requires that program managers evaluate all new programs for NEPA
             compliance.




**Deliberative process information omitted.**


                                                4
The two managers who complied with the NEPA were responsible for the Chandra X-ray
Observatory program (Chandra)20 and the X-33 Advanced Technology Demonstrator Vehicle
program (X-33).21 The contractor for the Chandra program performed the environmental
evaluation and documented that the program would have no significant environmental impact.
The program manager for the X-33 was aware of NEPA requirements and upon realizing the
potential environmental impacts of the X-33, coordinated with the manager of the Marshall
Environmental Engineering Department. As a result, Marshall prepared the NEPA required
environmental assessment and environmental impact statement.

In addition to reviewing programs and projects, we reviewed the Center's process for
implementing NEPA. We had concerns about whether Glenn’s existing controls for evaluating
NEPA for mission-related activities would ensure compliance with NEPA. For example,
managers did not evaluate programs/projects early enough or at the appropriate level. Glenn
performed the NEPA evaluation in coordination with its safety permit22 process. The safety
permit process was initiated during the project's implementation phase rather than the
formulation/planning phase as required. Waiting until the implementation phase is too late to
initially assess for NEPA because any changes to the program/project due to a NEPA action
could increase costs and cause delays. Also, the NEPA evaluation is implemented at the task
level rather than the program/project level. Because the NEPA consideration is tied to the
safety permit process, Glenn does not have sufficient controls to ensure that NEPA is
considered early enough and at the appropriate program/project level. In addition, Glenn may
not have factored environmental considerations and environmentally preferable alternatives into
the acquisition strategy.

Construction of Facilities Projects. All nine of the reviewed construction of facilities projects
complied with the NEPA requirements. However, two did not fully comply with NASA
guidance in CFR 1216.3, draft NPG 8840, and NPG 8820.2B. Specifically, the guidance
requires that managers for major construction of facilities projects prepare an environmental
assessment 23 or obtain a deviation from NEPA requirements. Neither of the two managers
prepared an environmental assessment because the environmental management offices at their
respective Centers concluded that the projects would have no environmental impact. At
Marshall, the environmental management office performed a preliminary environmental survey




**Deliberative process information omitted.**
22
   A safety permit is a license issued to operate a facility or piece of equipment within the constraints listed
on the permit. All managers of proposed test operations must request a safety permit.
23
   An environmental assessment is required for each major construction of facilities project, which is defined
in NPG 8820.2B as a construction project valued in excess of $750,000; or a repair, rehabilitation, or
modification project valued in excess of $1,000,000.


                                                       5
that concluded the project would have no environmental impact. At Kennedy, the
environmental management office reviewed the environmental checklist24 received from the
project manager and concluded that the project would have no environmental impact.

The CFR 1216.305(b) cites seven “specific NASA actions normally requiring an environmental
assessment” but does not explicitly identify when one should be performed. Even though the
two projects had no environmental impact, the Headquarters NEPA Coordinator25 agreed that
to fully comply with NASA guidance, each manager should have obtained a deviation from
NEPA requirements as required by CFR 1216.3 and the draft NPG 8840. These
circumstances clearly demonstrate the need for revised guidance for environmental assessments,
which is discussed in more detail in the Environmental Guidance section later in this report.

The nine projects that were in compliance with Federal requirements can be attributed to
greater controls over the construction of facilities projects. Specifically, NASA has included
detailed guidance in NPG 8820.2B on how to implement NEPA. Further, environmental
managers coordinate efforts with the facilities managers for all construction projects. For
example, the facilities offices include the environmental office in the facilities budgeting process,
obtain an environmental staff member as part of the team, invite environmental staff to project
meetings, and maintain a working relationship with the environmental offices. Conversely, the
lack of detailed guidance and coordination between mission-related and environmental
managers has contributed to the lack of NEPA compliance for Agency programs/projects.

Controls Over NEPA Implementation

NASA’s noncompliance with NEPA demonstrates the need to improve environmental
management controls. Specifically, NASA has not emphasized the need for environmental
management planning to ensure compliance with environmental law, NASA oversight and
guidance addressing NEPA is inadequate, and NASA has not trained most program/project
managers on the NEPA requirements. An effective system of management controls, as
explained below, could better ensure that NASA complies with NEPA.

Environmental Management Plan. An environmental management plan is an effective
management tool that allows managers to identify, assess, and mitigate risks, delays, and costs
associated with a program/project at the earliest opportunity. NASA does not specifically
require the preparation of an environmental management plan. Accordingly, program/project
managers have not taken sufficient measures to consider and minimize potential adverse impacts
to both the environment and the Agency.

24
   An environmental checklist is a form, a portion of which is in checklist format, that summarizes the purpose
and physical characteristics of a proposed project. The Center environmental management offices review
each completed checklist to determine whether the project is categorically excluded or requires the
preparation of an environmental assessment or environmental impact statement.
25
   The NEPA Coordinator is an official of the Office of Management Systems’ Environmental Management
Division.


                                                      6
NASA has performed various studies showing that poor planning and definition of requirements
results in cost growth and greater technical risk. Consequently, a major theme of
NPG 7120.5A is that NASA require and allow time for managers to adequately plan at the
beginning of each new program/project. While NPG 7120.5A addresses safety, mission
success, risk management, and acquisition planning, it does not fully and completely address the
benefits of environmental planning. Environmental management plans would help to ensure that
program/project proposals are subjected to the NEPA process at the earliest planning phase
and that environmental considerations and alternatives are part of the Agency’s acquisition
strategy. Also, an environmental management plan would be a good tool to document and
track NEPA compliance and to facilitate oversight of NEPA compliance by the Program
Management Councils.

The Federal Acquisition Regulation (FAR) and the NASA FAR Supplement also do not require
preparation of environmental management plans as part of the acquisition planning process.
However, the FAR, Part 7, “Acquisition Planning,” requires that acquisition plans address all
applicable environmental issues associated with an acquisition, including the need for an
environmental assessment or environmental impact statement, proposed resolution of
environmental issues, and any environmentally related requirements to be included in solicitations
and contracts. FAR, Part 23.7, “Contracting for Environmentally Preferable and Energy-
Efficient Products and Services,” requires that agencies implement cost-effective contracting
programs favoring environmentally preferable products and services. In addition, the NASA
FAR Supplement, Part 1807, further emphasizes the value of an acquisition strategy and
specifically states that NPG 7120.5 shall be an integral part of acquisition planning for
programs/projects. In our opinion, managers can more fully comply with NPG 7120.5A by
performing comprehensive environmental management planning that addresses how a
program/project will fulfill the full range of environmental requirements. Environmental planning
should also specify how the program/project manager would monitor environmental compliance
and the role of NASA managers, the Program Management Councils, and the contractors.

Oversight Responsibilities. NASA’s oversight of program/project formulation and
implementation processes has not adequately covered NEPA compliance. This is evident by
the noncompliance of the programs/projects noted in this report.

As part of its strategic management planning and implementation of NPG 7120.5A, NASA
formed Program Management Councils to oversee program/project management. The
Associate Administrator for Management Systems is a member of the Agency Program
Management Council. The Program Management Councils are responsible for reviewing
proposed programs and assessing existing programs/projects to evaluate cost, schedule, and
technical content to ensure that NASA is meeting its commitments specified in program
commitment agreements,26 program plans, and project plans. Thus, NASA has focused its

26
  A program commitment agreement is a contract between the NASA Administrator and the cognizant


                                                  7
oversight efforts on schedules, cost, and technical performance and not on other NPG 7120.5A
requirements, such as environmental compliance.

Additionally, program managers are responsible for overseeing projects that fall under their
programs. However, in some cases, program managers are relying on project managers to
evaluate and document environmental consideration. As noted in this report, none of the seven
projects reviewed complied with NEPA. This noncompliance indicates that project managers
are not evaluating potential environmental impacts as required by NEPA, and that the program
managers are not providing environmental oversight as required by NASA guidance.

Although NASA has established management councils to oversee NASA’s programs/projects,
the majority of programs/projects we reviewed are not complying with NEPA and other
Agency environmental guidance. We concluded that the current oversight has not provided the
necessary emphasis on the NEPA requirement to consider and document potential
environmental impacts.

NASA Guidance. Guidance in the Agency NPG’s and the CFR needs to be changed to
ensure that NASA employees comply with NEPA.




**Deliberative process information omitted.**

Enterprise Associate Administrator for implementation of a program.


                                                    8
**Deliberative process information omitted.**

         Facility Project Guidance. NPG 8820.2B provides thorough coverage of NEPA and
coordination of projects with NASA environmental offices. The handbook is an important
control that helps ensure that construction of facilities project managers comply with NEPA.
However, some NASA procedures have changed since the issuance of NPG 8820.2B, and the
handbook is now outdated. NPG 8820.2B needs to be updated to reflect current policies and
procedures. Specifically, the NPG requires that the NASA Form 1509, Brief Project
Document, contain a statement describing the completion of the NEPA process but does not
provide specific guidance on the content and structure of the statement. Subsequent to issuance
of the NPG, the Facilities Engineering Division developed specific instructions for preparing the
NASA Form 1509, and those instructions should be incorporated into the revised NPG. Six of
the nine construction of facilities projects reviewed did not comply with the Facilities Engineering
Division requirements for completing the NASA Form 1509.

        NASA Guidance in the CFR. CFR 1216.3 needs to be revised because it is too
broad and does not provide clear guidance to NASA employees. The NASA Environmental
Management Division plans to revise CFR 1216.3 and estimates the revision will take from 2 to
4 years to complete. The CFR 1216.3 requires revisions in the following areas:

         •   The definition of what constitutes a categorical exclusion omits the key criterion,
             which is lack of significant environmental impact. This omission could lead
             program/project managers to erroneously conclude that an action falling into one of
             the categorical exclusion categories is excluded even if the managers deem that
             there is a significant environmental impact.

         •   The eight specific categorical exclusions are vaguely worded and broad in scope.
             For example, one of the categories is "research and development activities in space
             science other than specific spacecraft development and flight projects." Such
             wording is of limited assistance when a program/project manager is faced with a
             decision as to which activities within space science are categorically excluded. In
             contrast, categorical exclusions at other Federal agencies are more precisely stated
             and are usually narrower in scope.27

27
 The Department of Energy (Energy) lists 103 categorical exclusions in 10 CFR Part 1021, Appendixes A and
B. Energy lists 15 categorical exclusions applicable to general agency actions and 88 applicable to specific


                                                     9
        •    The CFR cites actions that normally require an environmental assessment, but does
             not define “normally.” The two major construction of facilities projects that did not
             fully comply with the NASA guidance demonstrate the need for revised procedures
             regarding the requirements for preparing an environmental assessment. The two
             construction project managers did not perform an assessment because there was no
             environmental impact, while other managers performed an assessment for all major
             construction projects regardless of impact. The lack of definition for “normally” has
             resulted in various interpretations of the requirement for an assessment.

        •    Criteria for whether to perform an environmental assessment on construction of
             facilities projects are based on the project’s dollar value. However, experience has
             shown that high-dollar projects, in some cases, can have little or no environmental
             impact whereas low-dollar or no-cost projects can have significant environmental
             impact. Therefore, dollar value is not an effective criterion for environmental
             impact. The two major construction of facilities projects that did not fully comply
             with the NASA guidance also demonstrate the need for revised procedures for
             using dollar value as a factor for performing an environmental assessment. Although
             the CFR required an environmental assessment for both projects because of dollar
             value, neither had an environmental impact.

         Environmental Guidance. Although NASA has updated its environmental guidance
through the issuance of the draft NPG 8840, the revision has been in process for 4 years. We
identified a total of 125 requirements in the NEPA law and the Council on Environmental
Quality regulations. Only three Council requirements were not covered in the draft NPG 8840:

        •    Agencies must designate a person to be responsible for overall review of agency
             NEPA compliance.

        •    Draft environmental impact statements must list all Federal permits, licenses, and
             other entitlements prior to implementing the activity proposal.

        •    An agency may adopt a Federal draft or final environmental impact statement
             provided that it meets Council standards.

Promptly revising NASA’s guidance would strengthen environmental management controls and
help ensure that Agency managers comply with NEPA.



agency actions. Some examples of Energy categorical exclusions are: routine administrative, financial, and
personnel actions; transfer of property; information gathering, data analysis, documentation preparation,
dissemination; improvements to cooling water systems within existing buildings and structures; installation
of fencing with no adverse effect; and noise abatement.


                                                    10
Training on NEPA Requirements. The majority of the program/project managers had not
received NEPA training. Of the 11 mission-related program/project managers that did not
comply with NEPA, 10 stated that they had not received training in NEPA.

NASA Headquarters environmental and enterprise managers have not yet established a formal
training program that includes adequate coverage of NEPA requirements and the potential
impacts of noncompliance. However, officials from the Environmental Management Division
have contacted and briefed several Headquarters and Enterprise officials regarding the NEPA
requirements. Also, Center environmental managers have provided some NEPA training to
Center personnel but not enough to ensure NEPA awareness. For example, Kennedy has no
formal environmental training program but offers environmental leadership presentations, which
include coverage of the NEPA requirements, to Kennedy senior managers on an annual basis.
Glenn has offered environmental training sessions that included NEPA requirements; however,
the training has not been provided in the last few years, and for the most part, attendees were
not managers of mission-related activities. Marshall has provided some NEPA training to
specific groups at the Center but does not have a formal training program that covers NEPA.

While Glenn, Kennedy, and Marshall are providing some NEPA training, a formal NASA-wide
environmental management training program would be a more effective means of ensuring that
all program/project managers are aware and knowledgeable of the NEPA requirements.
Further, the training program should be available at the Centers. NASA’s Environmental
Management Division is developing a curriculum for a formal training program.

Adverse Effects of Noncompliance

Management controls are essential not only to ensure compliance with environmental laws and
regulations, but also to identify and mitigate adverse environmental impacts, risks, and costs to
Agency programs/projects. The Agency’s lack of compliance with the NEPA law and/or
NASA guidance, as shown in 13 (59 percent) of the 22 programs/projects reviewed, can have
adverse environmental impacts in addition to potentially violating Federal laws and NASA
guidance. Specifically, noncompliance can result in:

        •   Unnecessary program/project delays or stoppages and increased cost. Failure to
            complete all of the NEPA procedural requirements is a primary cause for adverse
            judicial judgments. In the event of a court challenge, time is lost and resources are
            expended dealing with court actions, and program/project schedules may be
            delayed or put on hold until the NEPA procedural steps are completed. In
            addition, the Agency could incur added costs for documentation efforts, potential
            contract modifications, and other costs associated with revising a program/project.

        •   Lost opportunities to consider other reasonable alternatives and their environmental
            impacts early in the project planning phase. This occurs when NEPA compliance
            occurs too late or when hard commitments are made that limit choices for


                                               11
                alternatives or essentially drive the Agency to choose a particular alternative.
                Failure to include reasonable alternatives in an environmental impact statement is
                one of the most common bases for litigation.

           •    Limited public involvement. Public involvement is a key element of NEPA
                compliance. Failure to obtain and consider the views of the public hinders full and
                fair consideration of the environmental impacts of proposed actions and alternatives
                in those cases in which a significant environmental impact exists.

NASA benefited from complying with NEPA on the X-33 Advanced Technology
Demonstrator program. As a result of preparing an environmental impact statement, Marshall
identified the potential for snow avalanches at nearby ski areas and took steps to reduce the risk
of injury and damage. Also, Marshall identified an endangered tortoise that may have been
negatively impacted and was able to establish procedures to mitigate harm to the tortoise.

Under NEPA, three NASA missions 28 have been challenged in court over the last 10 years by
anti-nuclear groups opposed to the launching of nuclear materials for outer space missions.
NASA succeeded in all three cases because it complied with the NEPA requirements and, as a
result, prepared sound environmental impact statements and records of decision. However,
NASA has 13 programs/projects valued at about $3 billion that are not in compliance with
NEPA.

When Federal agencies have not followed the NEPA requirements, plaintiffs have increased
costs of projects and delayed them for years. For example, plaintiffs successfully delayed and
increased the cost of two federally-funded construction projects (Federal Highway
Administration and the Army Corp of Engineers), a road construction project and a water
reservoir project, because the project managers did not properly prepare the environmental
impact statements. Plaintiffs often use environmental impact statement reviews performed by
the Environmental Protection Agency to support their noncompliance claims in court.




28
     The three missions that the anti-nuclear groups challenged were Galileo, Ulysses, and Cassini.


                                                      12
Recommendations, Management’s Response, and Evaluation of
Response

Management provided extensive comments on the report which we address in Appendix G.

The Associate Administrator for Management Systems should:

   1. Report NEPA noncompliance for mission-related programs/projects to the
      Internal Control Council as a potential material management control weakness
      to be included in NASA’s annual Federal Manager’s Financial Integrity Act
      statement of assurance.

Management’s Response. Nonconcur. Management stated that the report exaggerates the
nature and scope of NEPA noncompliance and violations of the Council on Environmental
Quality and NASA regulations. However, management agreed that NEPA guidance, training,
and managerial controls are inadequate. Management would concur with a recommendation to
report “non-trivial” NEPA violations for mission-related programs/projects. The complete text
of management’s comments is in Appendix F.

Evaluation of Response. Management’s comments are nonresponsive to the
recommendation. Consideration of environmental impacts in the early planning phase of
NASA’s programs/projects is the core concept of NEPA. We maintain that because NASA
managers did not comply with this concept, the reported NEPA noncompliance and violation of
the Council on Environmental Quality regulations are not exaggerated. We also maintain that
future violations should be reported to the Internal Control Council, but consider the present
state of noncompliance, including the inadequate guidance, training, and controls, to be a
potential material control weakness until corrected. We, therefore, request that management
reconsider its position and provide additional comments.

   2. Establish a requirement in NPG 7120.5A for environmental management
      planning to facilitate acquisition management and mitigate adverse impacts,
      risks, and costs to Agency programs and projects.

Management’s Response. Nonconcur. Management stated that such a recommendation
implies the need for a formal environmental management plan. While a formal plan cannot be
justified, there should be a requirement to factor environmental considerations into
program/project planning to ensure better decision making and to mitigate potential adverse
environmental, risk, and cost impacts. Management will advocate to the Program Management
Council Working Group that managers demonstrate a commitment to integrating environmental
planning into program/project planning.




                                             13
Evaluation of Response. The planned action is nonresponsive to the recommendation. We
do not consider a separate environmental management plan essential. Rather, including
requirements in the revised program plan would be sufficient. Management agrees that NASA
should establish a requirement to factor environmental considerations into program/project
planning, but does not concur with the recommendation to include this requirement in NPG
7120.5A. We believe that considering environmental factors is, in essence, environmental
management planning. Therefore, we maintain our position that NPG 7120.5A be modified and
request that management reconsider its position and provide additional comments.

   3. Require Program Management Councils to provide sufficient oversight to
      ensure programs and projects comply with environmental laws and Agency
      guidance.

Management’s Response. Concur. Management will advocate that progress in fulfilling
environmental mandates be a required element for reporting to the Program Management
Councils. Further, management will develop a process to increase NEPA awareness, set
schedules for satisfying NEPA requirements, and establish controls to ensure adherence to
those schedules.

Evaluation of Response. The actions planned are responsive to the recommendation. The
recommendation is considered resolved but will remain undispositioned and open until the
agreed-to corrective actions are completed.

   4. Increase NEPA and environmental management coverage in the revised
      NPG 7120.5 through coordination with the Program Management Council
      Working Group and the Environmental Management Division.

Management’s Response. Concur. Management will advocate that program/project
formulation schedules include environmental compliance. The Environmental Management
Division recently provided input to improve environmental coverage in NPG 7120.5A. The
Environmental Management Division will request that the Program Management Council
Working Group consider additional input in light of the Office of Inspector General (OIG)
report.

Evaluation of Response. The action planned is responsive to the recommendation. The
recommendation is considered resolved but will remain undispositioned and open until the
agreed-to corrective action is completed.

   5. Expedite the revision of CFR 1216.3, providing more in-depth coverage for
      categorical exclusions and removing dollar thresholds on categorical
      exclusions.




                                             14
Management’s Response. Concur. Management agrees that a new regulation would make
NEPA compliance more efficient, leading to long-term savings in resources and time needed to
conduct effective environmental planning. The Environmental Management Division had already
identified that the recommended revisions would materially enhance NEPA compliance and will
advocate the need for additional resources to revise current regulations.

Evaluation of Response. The action planned is responsive to the recommendation. The
recommendation is considered resolved but will remain undispositioned and open until the
agreed-to corrective action is completed.

    6. Add the three omitted Council on Environmental Quality requirements to the
       draft NPG 8840, and expedite issuance of the final version.

Management’s Response. Partially Concur. Management nonconcurred with adding the
first of the three Council requirements, stating that the draft NPG 8840 already addressed it.
However, management will post the name of the NASA NEPA coordinator on the
Headquarters’ environmental Web site and develop a list of NEPA contacts at each NASA
installation.

Management concurred with adding the second Council requirement, stating that corrective
action had already been completed.

Management nonconcurred with adding the third Council requirement stating that additional
guidance on "adoption” is not warranted at this time. Further, a hyperlink to the Council
regulations will be added when the NPG is placed on the NASA Online Directives Information
System. Finally, although adding language to the draft NPG this late in the revision process will
materially delay final issuance, management will consider additional adoption mandates during
development of new NEPA regulations.

Evaluation of Response. Management’s comments are responsive to the recommendation.
Regarding the first council requirement, the current language in the draft NPG combined with
plans to identify Agency NEPA points of contact on the Headquarters Web site satisfies the
intent of our recommendation. In relation to the third council requirement, there are plans to
include a hyperlink to the Council regulations; therefore, we agree that delaying final issuance of
the draft NPG 8840 is not warranted. We further agree that additional adoption mandates
should be considered during future revisions to the NPG. The recommendation is considered
resolved and closed for reporting purposes.

    7. Revise the NPG 8820.2B to include the Facilities Engineering Division's
       instructions for completing the NASA Form 1509, including the required
       statement indicating completion of the NEPA review.




                                                15
Management’s Response. Concur. The Facilities Engineering Division, in coordination with
the Environmental Management Division, will amend the NPG 8820.2B to reflect the NASA
Form 1509 instructions and other changes that would more effectively and efficiently ensure
environmental compliance. An interim solution will be in place by August 1, 2000, pending
revisions to the NPG.
Evaluation of Response. The actions planned are responsive to the recommendation. The
recommendation is considered resolved but will remain undispositioned and open until the
agreed-to corrective actions are completed.

    8. Direct Center Directors to bring the programs/projects identified in Appendix E
       into compliance with NEPA.

Management’s Response. Nonconcur. The Environmental Management Division stated that
12 of the 13 programs/projects were either technical, trivial violations due to a lack of
documentation or fully in compliance. Management was unable to obtain information on one
project.

Management stated that eight trivial violations occurred because four managers did not
document either a categorical exclusion or a record of consideration, two managers
misinterpreted NASA guidelines, and one manager did not perform an environmental
assessment. Management will document each of the files to correct seven of the violations and
will evaluate whether adopting an Air Force environmental assessment is an appropriate remedy
for the remaining violation.

For the four programs/projects that were in compliance, management stated that two were
either addressed in or fell within the scope of the International Space Station environmental
impact statement, and two were so broad in scope that a meaningful consideration of NEPA at
the program level was impossible.

Evaluation of Response. Management’s comments are nonresponsive to the
recommendation. We disagree that six of the mission-related programs/projects were trivial
(lack of documentation) violations of NEPA. Our finding related to the lack of early
consideration of the potential environmental impacts which resulted in these deficiencies. We
found that management had not, in most cases, considered and/or evaluated environmental
impacts during the programs/projects planning phase, as required by NEPA. For example,
management states that three of the violations were trivial because managers did not document
that the programs/projects met the criteria for a categorical exclusion. Our review showed that
those three managers were not aware of NEPA requirements or the criteria for categorical
exclusions. In another example, management agrees that one manager did not perform an
environmental assessment as required. Although a subsequent review by the Office of General
Counsel may show that NASA can adopt the Air Force’s environmental assessment, the
program manager did not properly consider NEPA-related risks to NASA at the onset of the
program. We, therefore, conclude the process needs improvement and maintain that the


                                              16
reported examples are not trivial violations of NEPA but are indications of the effect of the
problem.

We agree that the two construction of facilities project managers considered NEPA, but
misinterpreted NASA guidance for obtaining a waiver for the NEPA process. Accordingly, our
report states that all the construction of facilities projects were in compliance with NEPA, and
only two were not in full compliance with NASA guidance. Those two violations were included
in the report to illustrate that NASA guidance is unclear and inadequate.

Management’s response indicates that four of the programs/projects were in full compliance
with NEPA. For example, management’s response stated that two of the program/projects fell
within the scope of the International Space Station environmental impact statement. Although
an environmental evaluation performed after the initial planning stage may verify that the
programs/projects fell within an existing environmental impact statement, neither of the program
managers was aware of NEPA requirements or that their program/project may fall within the
scope of an existing impact statement. We will evaluate the compliance of the remaining two
programs/projects given that sufficient documentation to support management’s position of
compliance was provided.

“After-the-fact” evaluations by the Environmental Management Division may show that the
programs/projects did not have significant environmental impacts and that Agency managers
need only document records of consideration. However, we maintain that because of
inadequate planning, oversight, guidance, and training, NASA did not comply with the intent of
NEPA by considering environmental impacts at the earliest planning phase of a
program/project. We, therefore, request that management reconsider its position and provide
additional comments.

    9. Review current environmental training programs with the Associate
       Administrators for each Strategic Enterprise and the NASA Environmental
       Management Division, and establish programs that provide adequate NEPA
       coverage.

Management’s Response. Concur. The Environmental Management Division is developing
an environmental training module, which includes NEPA, for new program/project managers.
Further, the Division is advocating a comprehensive educational program addressing NEPA and
other environmental planning for NASA senior staff, program/project managers, and a
mandatory course for at least one environmental staff member at the NASA installations.

Evaluation of Response. The actions planned are responsive to the recommendation. The
recommendation is considered resolved but will remain undispositioned and open until agreed-
to corrective actions are completed.




                                                17
                    Appendix A. Objectives, Scope, and Methodology


Objectives

The overall objective of the audit was to determine whether NASA guidance ensures
compliance with NEPA. The specific objectives were to assess whether NASA:

       •     guidance fulfills NEPA requirements and
       •     managers evaluated programs/projects in compliance with the NEPA requirements
             and NASA guidance.

Scope and Methodology

We limited our review to programs and projects at three Centers: Glenn, Kennedy, and
Marshall. We reviewed Federal laws and regulations related to NEPA. We also reviewed
Agency regulations, guidance, and processes and discussed the overall NEPA process with the
Headquarters and Center environmental management officials.

To accomplish the first objective, we reviewed the NASA guidance and NEPA requirements
described in Appendix D. We then compared CFR 1216.3 and draft NPG 8840 to the NEPA
law and Council regulations. We performed the comparison by cross-referencing those
documents and noting inaccuracies or omissions in the draft NASA guidance. We also
assessed the adequacy of NEPA coverage in NPG 7120.5A and NPG 8820.2B. In addition,
we obtained information from other Federal agencies (Department of Energy, Department of
Defense, and the Environmental Protection Agency) related to categorical exclusions,
environmental management plans, and court cases.

To accomplish the second objective, we interviewed key management and environmental
personnel, reviewed and summarized the NEPA process, and examined relevant
documentation. Relevant documentation included environmental checklists and other
evaluations, records of environmental consideration, environmental assessments, findings of no
significant impact, environmental impact statements, and program/project plans. We developed
universes of FY 1999 active mission-related programs/projects and FY’s 1999 and 2000
construction of facilities projects at each Center we reviewed and tested a random sample of
programs/projects for compliance with the NEPA requirements and NASA guidance. We
interviewed the program/project managers and environmental management staff, and examined
relevant documentation to determine whether the managers evaluated programs/projects in
compliance with NEPA requirements and NASA guidance.




                                             18
                                                                                             Appendix A


Use of Computer-Processed Data. We did not rely on computer-processed data during our
audit.

Audit Universe and Sample. We developed our universes of mission-related
programs/projects from listings already developed by the Centers and Enterprises. We used
criteria for program/project designation in accordance with NPG 7120.5A for determining
whether an activity was a program or project. We compared the listings of programs/projects
to other information obtained from Center officials and resolved any discrepancies.

We developed our universes of construction of facilities projects from FY’s 1999 and 2000
program operating plan budgets at each Center. We excluded environmental compliance and
restoration projects from the universe because they are environment-related and are usually
managed by the Center’s environmental management office.

From each universe, we randomly selected samples for testing using random number tables.
The chart below shows the universes, sample sizes, and budgets of programs/projects reviewed
at the three Centers.

                  Universe and Sample Sizes of Programs and Projects Reviewed
                                              Sample                 Sample/Universe Size
                                              Budget
    Universe Description                    ($ millions)     Glenn       Kennedy       Marshall

    Mission-related programs                  $5,366          0/01         0/02             6/63

    Mission-related projects                   $674           4/22         0/04             3/133

    Construction of facilities projects         $43          3/14          4/49             2/42

    Totals                                    $6,083         7/36          4/49          11/181


1
  We excluded the Glenn Propulsion Systems program from the universe because the program provided only
administrative services for projects underneath it and had no mission-related duties.
2
  We excluded two Kennedy programs, Expendable Launch Vehicle Mission Support and Payload Carriers,
from the universe because the programs originated before NEPA was enacted and thus did not require
compliance.
3
  We excluded the Marshall Microgravity Research program from the universe because the program provided
only administrative services for projects underneath it and had no mission-related duties.
4
  We excluded two Kennedy projects, Checkout and Launch Control System and Test, Control, and Monitor
System, from the universe because the projects were categorically excluded and did not require a record of
environmental consideration according to the draft NPG 8840 and the NASA NEPA coordinator. Both
projects involve the development and installation of mission-related computer systems and equipment.




                                                   19
Appendix A


Management Controls Reviewed

We reviewed management controls related to identifying and analyzing proposed
programs/projects for environmental impact. Specifically, we reviewed NASA guidance for
implementing NEPA and the processes developed at the three Centers. We considered
management controls to be a potential material control weakness as discussed in the finding.

Audit Field Work

We conducted field work from March 1999 to January 2000 at Glenn, Kennedy, and Marshall.
We performed the audit in accordance with generally accepted government auditing standards.




                                              20
                        Appendix B. NASA’s NEPA Process

NEPA requirements and NASA guidance require that all Agency activities consider
environmental impacts in the earliest planning phase. NASA’s NEPA process in draft
NPG 8840 is illustrated below. Once a program or project proposal is formulated, the Agency
managers, in coordination with the applicable Headquarters or Center environmental
management offices, should perform an environmental evaluation to assess potential
environmental impacts. The environmental evaluation could result in one of three outcomes:
categorical exclusion (CatEx), environmental assessment (EA), or environmental impact
statement (EIS).




                                 THE NEPA PROCESS



                                        Proposal Formulated




                                P e r f o r m E n v i r o n m e n t a l Evaluation




                             CatEx                                                    EIS
          Prepare Record                        Document                                       Prepare Notice
          of Environmental                      Required?                                         of Intent
          Consideration

                                                          EA
                                                                                              Conduct Scoping

                                      Prepare Environmental
                                           Assessment

                                                                                            Prepare Environmental
                                                                                               Impact Statement
                                                Impacts                              YES
                                               Significant?


                                                         No                                    Prepare Record
                                                                                                 of Decision
                                         Prepare Finding of
                                        No Significant Impact


                                     Implement and Adjust Action




                                                       21
                                  Appendix C. Glossary

Acquisition Planning. The process by which the efforts of all personnel responsible for an
acquisition are coordinated and integrated through a comprehensive plan for fulfilling an agency
need in a timely manner and at a reasonable cost. Planning includes developing the overall
strategy for managing the acquisition.

Actions. New and continuing activities, including programs and projects; new or revised
agency rules, regulations, plans, policies, or procedures; and legislative proposals.

Categorical Exclusion. A category of actions that do not have a significant effect on the
human environment; therefore, neither an environmental assessment nor an environmental impact
statement is required.

Construction of Facilities. A congressional appropriation that funds contractual services for
the repair, rehabilitation, and modification of existing facilities; construction of new facilities,
acquisition of related collateral equipment; environmental compliance and restoration activities;
design of facilities projects; and advanced planning related to future facility needs.

Environmental Assessment. A concise public document that briefly provides sufficient
evidence and analysis for determining whether to prepare an environmental impact statement or
a finding of no significant impact. The document includes a brief discussion of the need for the
proposal, alternatives, the environmental impacts of the proposed action and alternatives.

Environmental Compliance and Restoration Project. A construction of facilities project
that addresses (a) the construction or modification of facilities as required for environmental
compliance, (b) the cleanup and remediation of hazardous substance contaminated sites, or (c)
a single environmental study.

Environmental Evaluation. The process of making the initial evaluation of the environmental
effects of a proposed action including alternative proposals.

Environmental Impact Statement. A detailed statement that documents the environmental
analyses of major Federal actions that have a significant impact on the quality of the
environment. The statement discloses information to the public, assists agency officials in
making decisions, and provides full and fair discussions of significant environmental impacts and
available alternatives that would minimize environmental impact.




                                                 22
                                                                                    Appendix C

Finding of No Significant Impact. A document prepared by a Federal agency briefly
presenting the reasons an action will not have a significant effect on the human environment and
for which an environmental impact statement, therefore, will not be prepared. The document
includes the environmental assessment, or a summary of it, on which the finding is based.

Formulation Process. A process that defines a program or project concept and results in an
implementation plan to meet mission objectives or technology goals as specified in the NASA
and Enterprise Strategic Plans.

Life-Cycle Cost. The total of the direct, indirect, recurring, nonrecurring, and other related
expenses incurred in the design, development, verification, production, operation, maintenance,
support, and retirement of a system over its planned lifespan.

Major (Discrete) Construction of Facilities Project. A construction of facilities project
valued in excess of $750,000; repair, rehabilitation, and modification in excess of $1 million;
and land acquisition and emergency repair at any cost.

Minor Construction of Facilities Project. A construction of facilities project in excess of
$200,000 but not exceeding $750,000 or repair, rehabilitation, and modification in excess of
$200,000 but not exceeding $1 million.

Program. A major activity within an Enterprise having defined goals, objectives, requirements,
and phased funding levels and consisting of one or more projects.

Program Management Councils. The Agency Program Management Council is the senior
management group responsible for reviewing, recommending approval of proposed programs,
and overseeing their implementation according to Agency policies. Governing Program
Management Councils are forums composed of Headquarters and Center senior managers who
assess program/project planning and implementation and provide oversight and direction.

Project. A significant activity within a program having defined goals, objectives, requirements,
life-cycle cost estimates, a beginning, and an end.

Proposal. The development stage of a program/project when an agency has a goal and is
actively preparing to make a decision on one or more alternative means of accomplishing that
goal and the effects can be meaningfully evaluated.

Record of Decision. A concise public record prepared by a Federal agency at the time it
makes a decision that is based on an environmental impact statement. The record states




                                                23
Appendix C

the decision, identifies all alternatives considered by the agency, and states whether all
practicable means to avoid or minimize environmental harm from the alternative selected have
been adopted.




                                              24
                       Appendix D. Laws and Regulations

This appendix describes the laws, regulations, and guidance related to NEPA and this audit.

Public Law 91-190, “The National Environmental Policy Act of 1969,” as amended.
NEPA was the first major Federal environmental law enacted and is the basic national charter
for protecting the environment. The purposes of NEPA are:

            To declare a national policy which will encourage productive
            and enjoyable harmony between man and his environment; to
            promote efforts which will prevent or eliminate damage to the
            environment and biosphere and stimulate the health and welfare
            of man; to enrich the understanding of the ecological systems
            and natural resources important to the Nation; and to establish a
            Council on Environmental Quality.


The intent of NEPA is to protect the environment. By requiring Federal agencies to gather
information about the environmental consequences of proposed actions and consider the
environmental impacts of those actions, agencies make wiser environmental decisions and keep
public citizens informed. Federal agencies’ must establish procedures that:

        •   Develop methods and procedures that will ensure that the environment is
            considered in decisionmaking along with economic and technical considerations.

        •   Include an environmental impact statement in every major Federal proposal
            significantly affecting the quality of the human environment.

40 CFR, Parts 1500-1508, “Council on Environmental Quality NEPA Regulations,”
last amended April 25, 1986. The Council on Environmental Quality, a council within the
Executive Office of the President, establishes regulations and reports to the President on the
nation's environmental status. The Council identifies the implementing NEPA regulations for all
Federal agencies by defining the levels of and timeframe for NEPA consideration and the
requirements for documentation. The core focus of the regulations is that agencies integrate the
NEPA process with other planning at the earliest possible time to ensure that decisions reflect
environmental values, avoid delays, and prevent potential conflicts. The regulations also
emphasize paperwork reduction, work delay reduction, agency coordination, and public
involvement.




                                               25
Appendix D

14 CFR, Subpart 1216.3, “Procedures for Implementing the National Environmental
Policy Act,” last amended October 7, 1991. Subpart 1216.3 contains NASA's procedures
for implementing NEPA and supplements the Council's regulations. The procedures apply to all
NASA activities that may have an impact on the quality of the environment. Subpart 1216.3
states that potential environmental effects must be considered, along with technical, economic,
and other factors, in the earliest planning phase.

The procedural requirements of NEPA involve three levels: the categorical exclusion, the
environmental assessment, and the environmental impact statement. NASA activities may be
categorically excluded from the requirements to prepare either an environmental assessment or
an environmental impact statement if actions are:

       . . . sub-elements of an approved broad-based level-of-effort NASA science and
       technology program (basic research, applied research, development of technology,
       ongoing mission operations), facility program, or institutional program; and . . . managed
       relatively independently of other related sub-elements by means of separate task orders,
       Research and Technology Operating Plans. . . .


Specific NASA activities that normally require an environmental assessment or are categorically
excluded are summarized in the following table.




                                                  26
                                                                                                        Appendix D

                     Environmental Assessments versus Categorical Exclusions
                                   As Defined in CFR 1216.3

         Program/Activity            Environmental Assessment                   Categorically Excluded1
                                        Normally Required

    Space Science                Specific spacecraft development       Research and Development (R&D)
                                 and flight projects.                  activities 2 other than specific spacecraft
                                                                       development and flight projects.
    Space and Terrestrial        Specific spacecraft development       R&D activities 3 other than specific
    Applications                 and flight projects.                  spacecraft development and flight
                                                                       projects.
    Aeronautics & Space          Specific experimental projects.       R&D activities 4 other than experimental
    Technology & Energy                                                projects.
    Technology Applications
    Space Transportation         Development and operation of new      R&D activities in space transportation
    Systems                      space transportation systems and      systems engineering and scientific and
                                 advance development of new space      technical support operations, routine
                                 transportation and spacecraft         transportation operations, and advance
                                 systems.                              studies.
    Other Space Related          Reimbursable launches of non-         R&D activities in space tracking and
                                 NASA spacecraft or payloads.          data systems.
    Facilities                   Major construction of facilities      Facility planning and design funding.
                                 projects.                             Minor construction of new facilities
                                                                       including rehabilitation, modification,
                                                                       and repair.
    Institutional (Operations    Actions to alter ongoing              Continuing operations of a NASA
    at a NASA Installation)      operations at a NASA Installation     installation at a level of effort or altered
                                 that could lead, either directly or   operations, provided the alterations
                                 indirectly, to natural or physical    result in only social and/or economic
                                 environmental effects.                effects but not natural or physical
                                                                       environmental effects.

1
  These categories are excluded from the requirements for an environmental assessment or environmental impact
statement. Although an action may be categorically excluded from the need for an environmental assessment or
impact statement, the activity is not excluded from the environmental evaluation requirement.
2
  Examples of these activities include Physics and Astronomy Research and Analysis, Planetary Exploration Mission
Operations, and Data Analysis.
3
  Examples of these activities include Resource Observations Applied Research and Data Analysis and Technology
Utilization.
4
  Examples of these activities include Research and Technology Base and Systems Technology Programs.




                                                        27
Appendix D

The Federal Acquisition Regulation, Part 7, “Acquisition Planning.” The FAR defines the
acquisition requirements for Federal agencies. Section 7.105(b)(16) requires that the acquisition plan:

        Discuss all applicable environmental and energy conservation objectives associated with
        the acquisition, the applicability of an environmental assessment or environmental impact
        statement, the proposed resolution of environmental issues, and any environmentally-
        related requirements to be included in solicitations and contracts.


The acquisition plan links the work to the objectives; identifies decision milestones; and addresses all the
technical, business, management, and other significant considerations, including risks.

The NASA FAR Supplement, Part 1807, “Acquisition Planning.” Part 1807.105(a)(2) states that
NPG 7120.5 shall be an integral part of acquisition planning for programs/projects subject to the NPG
requirements. If the NPG does not apply, the acquisition plan shall clearly state that fact. If the NPG
does apply, the acquisition plan shall specify whether all required NPG 7120.5 documentation is current
and approved. All draft or final solicitations must clearly identify the program or project of which they
are a part.

NASA Policy Directive 8800.16, “NASA Environmental Management,” September 6, 1995.
The Directive states that compliance with environmental regulations and NASA policy is the
responsibility of every NASA employee. Because administration of this policy is a management
responsibility, NASA Strategic Enterprises and Program Offices are accountable for all environmental
considerations and are ultimately responsible for full environmental compliance.

Draft NPG 8840, “NASA Procedures and Guidelines for Implementing the National
Environmental Policy Act and Executive Order 12114,” most recent version dated
October 26, 1999. The NPG is a draft that is in final review. Once approved, it will replace NASA
Handbook 8800.11, dated February 1988. The NPG serves as a practical reference and source of
guidance for NASA managers in ensuring that their programs, projects, and activities are carried out in
compliance with the letter and spirit of NEPA and Executive Order 12114.

NPG 7120.5A, “NASA Program and Project Management Processes and Requirements,”
April 3, 1998. NPG 7120.5A covers the formulation, approval, implementation, and evaluation of
aerospace programs and projects. The NPG addresses the NEPA requirements as follows:




                                                       28
                                                                                                 Appendix D

       (a) The National Environmental Policy Act requires NASA program/project managers to
           consider environmental impacts in the planning of Agency programs and projects that
           may have a significant impact on the quality of the human environment, consider
           alternatives to their proposed actions, and ensure compliance with other relevant
           environmental statutes, regulations, and Executive orders.


       (b) NASA program and project managers shall contact the environmental functional
           offices to ensure implementation of NEPA requirements in accordance with NASA’s
           policy and procedures (14 CFR Part 1216, NPG 8840, and Executive Order 12114).


In addition, Appendix E.4 of the NPG states that, "The required environmental assessment and
environmental impact statement for the project should be identified with the schedule for their
accomplishments."

NPG 8820.2B, “Facility Project Implementation Handbook,” April 25, 1997. NPG 8820.2B is
NASA's project management guidance for facility planning, budgeting, design, construction,
environmental compliance, and activation. The handbook's planning chapter explains how to
incorporate NEPA into the facility planning process. The handbook further addresses preparing the
environmental evaluation, assessment, and impact statements; identifying categorical exclusions; and
issuing a finding of no significant impact and a record of decision.




                                                     29
**Deliberative process information omitted.**




                     30
Appendix F. Management’s Response




                                    See Appendix G,
                                    OIG Comment 1


                                    See Appendix G,
                                    OIG Comment 2




               31
        Appendix F




See Appendix G,
OIG Comment 3




                     32
     Appendix F




33
Appendix F




             34
     Appendix F




35
Appendix F




             36
                                                     Appendix F

**Deliberative process information omitted.**




                                                37
Appendix F

**Deliberative process information omitted.**




                                                38
                                                     Appendix F

**Deliberative process information omitted.**




                                                39
Appendix F




             40
     Appendix F




41
Appendix F




             42
        Appendix G. OIG Comments on Management’s Response

NASA management provided the following general comments in its response to our draft report. Our
responses to the comments are also provided.

Management’s Comment. The characterization at various points that there are NASA
programs/projects totaling about $3 billion at risk for failure to comply with NEPA is unfair,
inflammatory, and unsupported by the facts.

1. OIG Comments. The report states that 11 of the mission-related programs/projects reviewed,
totaling about $3 billion, were not in compliance with NEPA. We believe this is not an unfair
characterization. Our findings and conclusions are based on a thorough review of NASA
program/project files and related documents, which did not support that environmental impacts were
evaluated in compliance with NEPA. We also interviewed present and past program/project managers,
who stated for the most part, that that they were unaware of the NEPA and NASA requirements. In
our opinion, such a lack of awareness creates a major risk of NEPA noncompliance within NASA.

Because management has not provided us with evidence that our findings are invalid, we have not been
able to validate management’s comments specifically related to the 13 programs/projects. In fact, we
have reason to question management’s assertions for these programs/projects. For example,
management stated that a sizable portion of the Physics and Process Modeling project involved
mathematical modeling using computers. Our follow-up related to the project at Glenn contradicted
management’s response. After the audit, we contacted the initial project manager who stated that about
one-third of the project was for computer analysis, including the mathematical modeling, and two-thirds
was for testing in laboratories and test cells to validate the analysis. Additionally, we reviewed the
current project plan, which further supported that both analysis and actual testing had been performed.
According to NEPA and NASA guidance, this project must be evaluated for NEPA compliance.

Management’s Comment. There are several statements that NASA lacks effective NEPA guidance.
For the past 18 months NASA Centers have been told to essentially ignore NHB 8800.11, which was
outdated and ineffective. Instead, the Centers were told to use draft NPG 8840 as de facto guidance
prior to its issuance. The OIG found that the draft NPG 8840 covers virtually all the relevant elements
of NEPA guidance. It has been management's understanding that NASA Centers have been operating
in that de facto fashion.

2. OIG Comments. We agree that the draft NPG 8840 is a much improved and thorough
environmental document. However, the term NASA guidance refers to both CFR 1216.3 and the draft
NPG 8840. As stated in the report, the CFR is unclear and inadequate. In addition, guidance can be
effective only if implemented by NASA staff. We identified that mission-related program/project
managers and their overseers were not aware of the draft NPG 8840 or the requirements for evaluating
environmental impacts or NEPA compliance. We also found that the draft NPG has been disseminated
only to the Centers' environmental offices. However, the




                                                   43
Appendix G

NEPA process must be initiated by the program/project managers because the Center’s environmental
offices are often uninformed of new program/projects.

Management Comment. There is an implication that NASA presently has high litigation exposure.
The facts of the situation for the programs/projects reviewed in no way support that assertion.

3. OIG Comments. We disagree that the report implies high exposure to litigation associated with the
noncompliant programs/projects. The word litigation is used only once in the impact section of the
report. Further, the language in the report was excerpted from the draft NPG 8840. The report points
out that increased risks, including litigation, may exist when the NEPA process is not followed.




                                                44
                           Appendix H. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
R/Associate Administrator for Aero-Space Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans


NASA Centers

Director, John H. Glenn Research Center at Lewis Field
 Chief, Environmental Management Office, John H. Glenn Research Center at Lewis Field
Director, John F. Kennedy Space Center
 Chief, Environmental Program Office, John F. Kennedy Space Center
Director, George C. Marshall Space Flight Center
 Deputy Director, George C. Marshall Space Flight Center
 Manager, Environmental Engineering Department, George C. Marshall Space Flight Center


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
  Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition Issues,
  General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                                   45
Appendix H

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                                 46
              NASA Assistant Inspector General for Auditing
                             Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant
Inspector General for Auditing; NASA Headquarters, Code W, Washington, DC
20546-0001.


Report Title: Compliance With the National Environmental Policy Act

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.
                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                      Agree               l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

         Excellent                Fair
         Very Good                Poor
         Good


If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
1
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                          Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes:______                                       No:______

Name: _____________________________

Telephone: _________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Chester A. Sipsock, Program Director, Environmental and Financial Management Audits

Sandra A. Massey, Program Manager

James E. Richards, Auditor-in-Charge

Lynette A. Westfall, Auditor

William R. Lester, Auditor

Nancy C. Cipolla, Report Process Manager

Annette Huffman, Program Assistant
